APPENDIX A

~ issouri Olourt nf

l\ppeals

~nu±Iyeru ~is±rid

iHuisinn ®nt
In Re ROBERT W. ALLEN,
Petitioner,
v.
JEFF NORMAN, Warden, South Central
Correctional Center,
Respondent.

)
)
)
)
)
)
)
)
)
)

No. SD35655

Filed: Nov. 27, 2018

ORIGINAL PROCEEDING IN HABEAS CORPUS
HABEAS RELIEF GRANTED
This is an original proceeding in habeas corpus. Robert W. Allen ("Petitioner")
was sentenced to life without eligibility for parole for fifty years ("L WOP 50") for a
capital murder he committed in January 1984 as a sixteen-year-old. See sections 565.001
and 565.008.1. 1 Petitioner also received two terms of life imprisonment for first-degree
murder (felony murder) and armed criminal action for other offenses he committed in the
same course of events. See sections 565.003, 565.008.2, and 571.015.1. All three
sentences were run consecutively. 2

1

All statutory references are to RSMo 1978.
Petitioner's sentence was affirmed in State v. Allen, 710 S.W.2d 912, 917 (Mo. App. W.D. 1986). That
opinion describes "[t]he brutal facts of these murders[.]" Id. at 914.
2

1

Petitioner seeks habeas relief only regarding his LWOP 50 sentence on the basis
that it violates the Eighth Amendment in light of Miller v. Alabama, 567 U.S. 460
(2012), and State ex rei. Carr v. Wallace, 527 S.W.3d 55 (Mo. bane 2017). 3 Petitioner
maintains that his sentence for capital murder should be overturned and the case
remanded for a resentencing hearing on that count pursuant to the procedure described in

Carr and State v. Hart, 404 S.W.3d 232 (Mo. bane 2013). The State maintains that "[i]t
does not matter whether one part of the sentence would be impermissible standing alone.
Instead, the aggregate sentence is analyzed under the framework in Willbanks [v.

Department of Corrections, 522 S.W.3d 238 (Mo. bane 2017)]."
Factual Background and Procedural History

At the time of Petitioner's offenses, capital murder was punishable only by death
or a LWOP 50 sentence. See section 565.008.1. "Although the [S]tate requested the
death penalty, the jury could not agree upon punishment, and the trial court did not
impose the death penalty." Allen, 710 S.W.2d at 916. The State points out that
Petitioner's additional life sentence for first degree felony murder had no mandatory
minimum sentence to be served for purposes of parole eligibility, and the armed criminal
action sentence had a three-year mandatory minimum before parole eligibility was
established.
Petitioner is incarcerated at the South Central Correctional Center. His first
attempt to obtain habeas relief on the same grounds asserted in the instant petition was
denied by the circuit court. The circuit court noted that Petitioner's sentences were
3
Petitioner asserts that should he be found guilty of second-degree murder instead of capital murder
following the proceedings outlined later in this opinion, his conviction for armed criminal action must also
be corrected as it is predicated on the capital murder conviction. We do not decide that issue here. The
record before us does not establish that capital murder was the predicate offense for the armed criminal
action offense.

2

consecutive, thereby concluding that "the sentencer found after considering all relevant
factors that the mandatory minimum for capital punishment of no parole for fifty years
was not enough punishment. The sentencer thus satisfied the duty noted in [Willbanks]
to 'impose a sentence on a case-by-case basis.' [522 S.W.3d at 243]." We disagree.
Analysis

1. The LWOP 50 Sentence
"A prisoner is entitled to habeas corpus relief where he proves that he is
'restrained ofhis ... liberty in violation of the constitution or laws of the state or federal
government."' Carr, 527 S.W.3d at 59 (quoting State ex rel. Clemons v. Larkins, 475
S.W.3d 60, 76 (Mo. bane 2015)). "To withstand the Eighth Amendment's prohibition of
cruel and unusual punishment, the punishment for a crime must be proportional to both
the offender and the offense." ld. In Carr, our high court reasoned that "[s]entencers
should be given the opportunity to consider the mitigating qualities of a defendant's
youth." Id. at 60. Indeed, '"criminal procedure laws that fail to take defendants'
youthfulness into account at all [are] flawed."' Id. quoting Miller, 567 U.S. at 473-74.
In Carr, the juvenile defendant was found guilty of three counts of capital murder,
but he was sentenced to three concurrent sentences ofLWOP 50 after the State chose not
to seek the death penalty. Id. at 58. "Like Miller, the mandatory statutory sentencing
scheme in place at the time of Mr. Carr's conviction denied the sentencer the opportunity
to consider the attendant characteristics of Mr. Carr's youth before imposing the severe
punishment of a life sentence without the possibility of parole for 50 years." I d. at 61.
The Court found that "[b]ecause Mr. Carr's sentence was imposed without any

3

consideration of his youth, his sentence violates the Eighth Amendment[,]" and he "must
be resentenced." Id. at 63.
The State responds -without citation to supporting authority- that "the analysis
is different [than that presented in Carr] when, as here, a court has chosen to impose
consecutive, additional sentences for each crime. In that circumstance, no individual
sentence is analyzed on its own for whether it would be impermissible." Based on that
assertion, the State maintains that "Willbanks controls this case, not Carr or Nathan." 4
The sentences at issue in Willbanks did not involve capital murder. See 522
S.W.3d at 239-40.
Willbanks was 17 years old when he was charged with kidnapping, firstdegree assault, two counts of first-degree robbery, and three counts of
armed criminal action. He was convicted and sentenced to consecutive
prison terms of 15 years for the kidnapping count, life for the assault
count, 20 years for each of the two robbery counts, and 100 years for each
of the three armed criminal action counts.

Id. at 239. Willbanks asserted that "his sentences, in the aggregate, will result in the
functional equivalent of a life without parole sentence." Id. at 239. He went on to point
out that "[t]he Supreme Court held [in Graham v. Florida, 560 U.S. 48, 82 (2010),] that
4

The last case mentioned is presumably a reference to State v. Nathan, 404 S.W.3d 253,256 and 271 n.l2
(Mo. bane 2013) (a sentence oflife without parole for first-degree murder committed while the offender
was a juvenile was reversed as violating the Eighth Amendment) ("Nathan r'). The State argues that
Nathan /"has been superseded[,]" citing State v. Nathan, 522 S.W.3d 881, 892 (Mo. bane 2017) ("Nathan
IF'), in addition to its arguments regarding Willbanks. In Nathan I, the defendant argued "that he also
should be re-sentenced on the remaining 21 non-homicide counts on which he was found guilty and
sentenced below. Nathan did not appeal those convictions, however." 404 S.W.3d at 271 n.l2. The Court
noted that "[t]o the extent that Nathan was attempting to assert a claim based on the combined effect of the
non-homicide sentences and his sentence for the murder charge, such a claim is premature until after the resentencing procedure described above, and will be moot ifNathan is sentenced to life without parole." Id.
Such a claim was advanced in Nathan II and characterized as a "Graham Claim[,]" 522 S.W.3d at 885,
after Nathan was resentenced for second-degree murder instead of first-degree murder and sentenced to life
imprisonment while he was also subject to multiple other consecutive sentences. Id. at 884-85. Our high
court found: "Unlike in Graham, Nathan was found guilty of second-degree murder along with multiple
nonhomicide offenses. Therefore, Nathan's claim under Graham is denied." Id. at 888 (footnote omitted).
It concluded, "[t]or this Court to hold Graham and Miller apply to consecutive sentences amounting to the
functional equivalent oflife in prison without the possibility of parole, it would undoubtedly need to extend
both holdings to uncharted waters." Id. at 893. Again, none of this alters the precedent set forth in Carr
concerning the L WOP 50 sentence that Petitioner challenges here.

4

the Eighth Amendment prohibits juvenile nonhomicide offenders from being sentenced to
life without parole." 522 S.W.3d at 242.
In rejecting Willbanks's argument, our high court pointed out that he "was not
sentenced to life without parole." Id. "The Supreme Court has never held that
consecutive lengthy sentences for multiple crimes in excess of a juvenile's life
expectancy is the functional equivalent of life without parole." I d. at 246. Further,
"absent guidance from the Supreme Court, [the Supreme Court of Missouri] should not
arbitrarily pick the point at which multiple aggregated sentences may become the
functional equivalent of life without parole." Id. at 245.
Willbanks was then distinguished in Carr, our high court noting that "[a]though
this case involves multiple offenses, Mr. Carr's three sentences of life without the
possibility of parole for 50 years were all run concurrently. This case does not present
the same stacking or functional equivalent sentences issue presented in Willbanks[.]"
527 S.W.3d at 61 n.7. Nonetheless, the State insists that the addition of the other
sentences is what removes Petitioner's case from analysis under Carr. 5
As in Willbanks, 522 S.W.3d at 239, Petitioner received consecutive sentences.
We believe that the critical difference, however, is that no single sentence imposed in
Willbanks offended the Eighth Amendment. Here, Petitioner is not challenging his
sentences for first degree murder and armed criminal action, nor the fact that his
sentences were imposed consecutively. Instead, Petitioner contends that "if one part of a

5

The State also argues that review of Petitioner's sentence may advance no further than "the framework in
[Graham]" and then must fail because Petitioner shows no national consensus against the type of sentence
he received and no insufficiency in terms of the sentence's penological goals. This argument ignores that
the Supreme Court was considering a new type of categorical challenge in Graham as it worked through
the analyses of a national consensus and penological goals. 560 U.S. at 61, 62, and 67. After doing so, it
concluded that "[t]he Constitution prohibits the imposition of a life without parole sentence on a juvenile
offender who did not commit homicide." Id. at 82.

5

sentence is impermissible, the defendant is entitled to be resentenced as to the
unconstitutional part ofthe sentence even if there are other sentences running
consecutively to it." Here, unlike Willbanks, no sentences need to be stacked with any
others to reach a "functional" sentence of life in prison for at least fifty years before
parole eligibility is reached. Petitioner has an actual LWOP 50 sentence that is separate
and distinct from any of his additional sentences.
While it may well be that the trial court determined the brutal nature of
Petitioner's offenses warranted consecutive sentences, the LWOP 50 sentence was
mandatory after the death penalty was rejected. See section 565.008.1 and Allen, 710
S.W.2d at 914. There was no room for consideration of second-degree murder as an
alternative in considering "whether [Petitioner's sentence] of life without the possibility
of parole for 50 years [was] just and appropriate considering his youth, maturity, and the
other Miller factors." Carr, 527 S.W.3d at 62. It was the mandatory aspect of Mr. Carr's
LWOP 50 sentences that made them unconstitutional under Miller:
[T]he most severe mandatory penalty was imposed on Mr. Carr in direct
contravention of the foundational principle "that imposition of a State's
most severe penalties on juvenile offenders cannot proceed as though they
were not children." [Miller] at 2466. Consequently, Mr. Carr's sentences
violate the Eighth Amendment because they were "imposed without any
opportunity for the sentencer to consider whether th[ e] punishment[ s
were] just and appropriate in light of [Mr. Carr's] age, maturity, and other
factors discussed in Miller." State v. Hart, 404 S.W.3d 232, 238 (Mo.
bane 2013).

Carr, 527 S.W.3d at 61-62 (footnote omitted). Thus, Carr is applicable and binding on
this court, and it entitles Petitioner to the habeas relief he seeks.

6

2. The Applicable Resentencing Procedure
The Court in Carr applied the procedures outlined in Hart in stating the proper
resentencing procedure:
First, the sentencer must consider whether Mr. Carr's sentences of
life without the possibility of parole for 50 years are just and appropriate
considering his youth, maturity, and the other Miller factors. [Hart, 404
S.W.3d at 241]. If Mr. Carr elects to have a jury resentence him, the jury
must be "instructed properly that it may not assess and declare" his
punishment for capital murder should be life without the possibility of
parole for 50 years "unless it is persuaded beyond a reasonable doubt that
this sentence is just and appropriate under all the circumstances." Id.
(internal quotation omitted). The jury must also be instructed, "before it
begins its deliberations, that if it is not persuaded that life without parole
[for 50 years] is a just and appropriate sentence under all the
circumstances of the case, additional instructions concerning applicable
punishments will be given at that time." Id. at 242.
If, after considering all the circumstances, the sentencer finds Mr.
Carr qualifies for life without the possibility of parole for 50 years, then
that is the only authorized statutory sentence. Id. If, however, the
sentencer is not persuaded that this sentence is just and appropriate, Mr.
Carr cannot receive that sentence. Instead, the trial court must declare
section 565.008 void as applied to Mr. Carr on the ground that it does not
provide a constitutionally valid punishment for his offense. Id.
If section 565.008 is void, the trial court must vacate the jury's
verdict finding Mr. Carr guilty of capital murder under section 565.001
and enter a new finding that he is guilty of murder in the second degree
under section 565.004. Id. After the sentencer enters the finding that he is
guilty of murder in the second degree, the sentencer must determine his
sentence based on the statutory range applicable to these offenses. Id. at
243. Under section 565.008.2, "[p]ersons convicted of murder in the
second degree shall be punished by imprisonment by the division of
corrections for a term of not less than ten years." If Mr. Carr elects to
have a jury resentence him, the jury will be provided with additional
instructions regarding sentencing for murder in the second degree. !d. As
this Court instructed in Hart, these additional instructions "should not be
submitted to the sentencer-unless and until the sentencer has deliberated
and rejected sentencing [the juvenile offender] to [life without the
possibility of parole for 50 years] for [capital murder]." Id. Mr. Carr
would then be resentenced for second degree murder within the statutorily
authorized range of punishments for that offense. !d.

7

527 S.W.3d at 62 (footnote omitted).

Habeas relief is granted. Petitioner's LWOP 50 sentence for capital murder is
vacated, and the case is remanded for resentencing on that count consistent with the
procedure outlined in Carr. See 527 S.W.3d at 62.

DON E. BURRELL, P.J.- OPINION AUTHOR
NANCY STEFFEN RAHMEYER, J. -CONCURS
GARY W. LYNCH, J.- CONCURS

8

